GOLDSTEIN & RUSSELL, P.C.
7475 Wisconsin Ave.
Suite 850
Bethesda, MD 20814

June 4, 2020
Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First St., NE
Washington, D.C. 20543
Re:

No. 19-1166, Diné Citizens Against Ruining Our Environment, et al. v. Bureau of
Indian Affairs, et al.

Dear Mr. Harris,
I am writing to inform you that Petitioners in the above-captioned case hereby waive the
14-day waiting period for distribution of the case materials. Please distribute the case materials
on June 9, 2020 so that the Court may consider the petition at its conference on June 25, 2020.
Petitioners will submit a reply brief on June 8, 2020.
Thank you in advance for your assistance with this matter.
Very truly yours,

Sarah E. Harrington
cc: Respondents’ counsel

(202) 362-0636
(866) 574-2033 fax

www.goldsteinrussell.com

